No: 20-5808
IN THE SUPREME COURT OF THE UNITED STATES

In re. Roger Liverman, — PRO SE PETITIONER
vs.
Lawanda McMurray, et al, — RESPONDENT(S)
T
ON PETITION FOR A WRIT OF MANDAMUS, TO
THE COURT OF APPEALS, FIFTH CIRCUIT
MOTION FOR LEAVE TO FILE A PETITION FOR EN
BANC REHEARING OF PETIONERS WRIT OF
MANDAMUS PURSUANT TO U.S. SUPREME COURT
RULE 44 REHEARING

Roger Liverman
422 Holiday Drive
Ponder, Texas 76259
(940) 372-3686

Now comes Roger Liverman, Petitioners, and will show the following:
This Case is now in front of the Supreme Court, and this is shameful.
The history of this case will show that it was fraught with violations of
Due Process, Fraud upon the Court by the Court, ie District Court,
Fifth Circuit, Court of Appeals,
This case was brought under the Civil provisions of RICO, and under
Title 18 U.S.C. Sec. 4 Misprision Felony, - (as required by law and
language contained in the statute.)
Not a single fact has been disputed by any of the Respondents or
through the Respondents Attorneys to date.
Yet here we are. There is a history of criminal acts, Due Process, Equal
Protection clause of the U.S. Constitution.by District Clerks, Clerks in
the Federal Court of Appeals Fifth Circuit, and first by the U.S.
Magistrate Judge, District Judge, and through the Appellate Judges in
the Fifth Circuit not addressing any of the Issues brought before it by
Petitioner.
District Court Midland:

Page 1 of 4

•

One aspect of the RICO case presented involved the issue of a
Murder for Hire Scheme by Katheryn Paine Hall Dutko, that was
brought to my attention by a Texas Ranger Ron Pettigrew, (a
defendant in Default) The Courts and all Parties of this Case
being officers of the court accept Katheryn Paine Hall Dutko were
made aware of this by being served by a process server.

• Failure to perform Administrative Duties by not recording
Defaults, i.e. The Docket will show that several of the Defendants
either did not answer (James McDonald) or filed late and missed
legal timeframes.

• A Fraud upon the Court by the Court. A U.S. Magistrate Judge
making False Statements, which the U.S. District Court Judge
was aware and yet did not correct in his Final Decision. Fraud
vitiates everything it touches.

Page 2 of 4

• The Civil Docket sheet was manipulated in an attempt to hide this
false statement of the U.S. Magistrate Judge and by the District
Judge.

• The Clerk upon Appeal to the Fifth Circuit failed to provide a true
and correct and complete file to the Clerk of the Fifth Circuit
Court of Appeals.

• The Court was made aware of a criminal act under Title 18 U.S.C.
1512 Intimidation by the Defendants Attorney of Record.
Threatening Petitioner he would be in “peril” if I did not drop the
lawsuit. This was sent via certified mail, return receipt by the
Defendant. The District Judge was made aware of this criminal
act under provisions of Title 18 U.S.C. Sec 4 Misprision Felony. No
action taken.

Fifth Circuit Court of Appeals:
• The Clerk upon Appeal to the Fifth Circuit failed to provide a true
and correct and complete file to the Clerk of the Fifth Circuit
Page 3 of 4

Court of Appeals. The Petitioner notified the Clerk of the Fifth
Circuit of this fact. No action taken.

* The Fifth Court was made aware of all the above issues contained
in Petitioner s Appeal of the Lower Court Rulings and Petitioners
Writ of Mandamus of criminal act provisions of Title 18 U.S.C. Sec
4 Misprision Felony. No action taken.

• The way the Fifth Circuit gave its opinion created a Finality Trap,
by only dismissing two of the Defendants out of the several
Defendants. This can only be resolved by the U.S. Supreme Court.
PRAYER
That this Court grant the Petitioner’s request for Rehearing for the
above foregoing reasons. To restore the Integrity of the Lower Courts.

Roger Liverman
422 Holiday Drive
Ponder, Texas

Page 4 of 4

\

Supreme Court of the United States

Roger Liverman
(Petitioner)
v.

i --A"

PO^ rOi-i

No. 20-5808

t pit

(Respondent)

To

foiVftCUtPPN

Counsel for Respondent:

NOTICE IS HEREBY GIVEN that a petition for writ of mandamus in the aboveentitled case was filed in the Supreme Court of the United States on August 26, 2020,
and placed on the docket September 25, 2020.
Beginning November 13, 2017, parties represented by counsel must submit filings
through the Supreme Court’s electronic filing system. Paper remains the official form- of.
filing, and electronic filing is in addition to the existing paper submission requirement.
Attorneys must register for the system in advance, and the registration process may take
several days. Further information about the system can be found at
https://www.suDremecourt.gov/fi1ingandrules/electronicfiling.asnx.

Mr. Roger Liverman
422 Holiday Drive
Ponder, TX 76259
(940) 372-3686

NOTE: This notice is for notification purposes only, and neither the original nor a copy should be filed in the
Supreme Court.

No: 20-5808
IN THE SUPREME COURT OF THE UNITED STATES

In re. Roger Liverman, — PRO SE PETITIONER
vs.
Lawanda McMurray, et al, — RESPONDENT(S)
ON PETITION FOR A WRIT OF MANDAMUS, TO
THE COURT OF APPEALS? FIFTH CIRCUIT
PETITION FOR EN BANC REHEARING OF
PETIONERS WRIT OF MANDAMUS PURSUANT TO
U.S. SUPREME COURT RULE 44 REHEARING

Roger Liverman
422 Holiday Drive
Ponder, Texas 76259
(940) 372-3686

\

Standing:
Supreme Court Rule 44 Rehearing:
Any petition for the rehearing of an order denying a petition for a writ of
certiorari or extraordinary writ shall be .filed within 25 days after the
date of the order of denial and shall comply with all the form and filing
requirements of paragraph 1 of this Rule, including the payment of the
filing fee if required, but its grounds shall be limited to intervening
circumstances of a substantial or controlling effect or to other substantial
grounds not previously presented. The time for filing a petition for the
rehearing of an order denying a petition for a writ of certiorari or
extraordinary writ will not be extended.

Relief Sought
Pursuant to Rule 44 of this Court, Roger Eiverman Pro Se Petitioner
hereby respectfully petitions for rehearing of this case before a full nineMember Court.
The Court treat Petitioner’s Writ of Mandamus and Notification of Title
18 U.S.C. Sec. 4 Misprision Felony as “de novo” and make a binding
Opinion on the Requirements and Duties of the Court once Notified by a
Citizen as contained in the plain language of Title 18 U.S.C. Sec. 4
Misprision Felony. Forward said criminal complaint to the Proper
Authorities to be Investigated fully. Address and resolve all issues
contained within- to not further delay the Due Administration of
Justice, Due Process and Equal Protection Clauses of the Constitution.
Page | 1

For example, will show the Court the following:
■ That the Clerk failed to issue Default Judgment after Parties
failed to Answer Complaint after having been properly served a
copy of the federal Summons and Complaint,
■ That said act of issuing Default Judgment is a ministerial duty of
the Clerk, Office of the Clerk, in the United States District Court,
for the Western District of Texas, Midland Division,
■ That enough time has passed, that makes Writ of Mandamus ripe
to be filed on this matter.
■ The Default Notice filed occurred on April 25,2019, April 29,2019
and May 30, 2019.
That failure of the Clerk, Office of the Clerk, in the United States
District Court, for the Western District ofTexas, Midland Division, to
perform these duties violates Pro Se Plaintiffs right of Due Process and
Equal Protection Under the Law and further gives the appearance of
impropriety and damages the integrity of this Court by rewarding
conduct of ignoring or failing to Answer a Federal Summons in the
proper timeframes and failing to do issue said Default gives the
appearance of condoning and rewarding failure
The United States 5th Circuit Court of Appeals was given Formal
Notification of Title 18 U.S.C. § 4 Misprision Felony of Jeannette J.
Clack, Clerk of Court, Philip J. Devlin, Chief Deputy, Office of the
Clerk, U.S. District Court, Western District ofTexas (Midland Division)
for Violating Title 18 U.S.C. § 2071.Concealment, Removal, or
Mutilation Generally.

Page | 2

Pro Se Plaintiff-Appellant respectfully Request that this matter be
referred to the United States Department of Justice for further
Investigation and Prosecution to the fullest extent of the law.
Pursuant to Title 18 U.S.C. Sec. 4 Misprision of Felony
“Whoever, having knowledge of the actual commission of a felony
cognizable by a court of the United States* conceals and does not as soon
as possible make known the same to some judge or other person in civil
or military authority under the United States, shall be fined under this
title or imprisoned not more than three years, or both". (June 25, 1948,
ch. 645, 62 Stat. 684; Pub. L. 103-322, title XXXIII, §330016(1)(G), Sept.
13, 1994, 108 Stat. 2147.)

Plaintiff-Appellant in accordance to Fed R.C.P. 11(b) Representations to
Court
By presenting to the court (whether by signing, filing, submitting, or
later advocating) a pleading, written motion, or other paper, an
attorney or unrepresented party is certifying that to the best of the
person's knowledge, information, and belief, formed after an inquiry
reasonable under the circumstances, (1) It is not being presented for any improper purposes, such as to
harass or to cause unnecessary delay or needless increase in the cost of
litigation;

Page | 3
-6

(2) The claims, defenses, and other legal contentions therein are
warranted by existing law or by a nonfrivblous argument for the
extension, modification, or reversal of existing law or establishment of
new law,
(3) the allegations and other factual contentions have evidentiary
support or, if specifically, so identified, are likely to have evidentiary
support after a reasonable opportunity for further investigation or
discovery;"

In the instant case, Title 18 U.S.C. Sec. 4 Misprision of Felony is very
clear the duties and responsibilities of a Private Citizen to notify a
“Judge or someone in Authority”. Congress has provided that a citizen
“shall” do this.
Due to the Separation Clauses in the U.S. Constitution, the Appellate
Court does not have authority to execute the enforcement of law, that is
reserved to the Executive Branch. The Courts can only “interpret” the
law.
Nowhere has Congress given it the option to ignore the provisions of the
statute by the Court. The Court does not have the discretion and ability
to determine how it will effectuate its statutory duty to achieve the
goals expressed by Congress.
T*.

The word “shall” is imperative, and, it deprives the Court of the right to
do something that is clearly contrary to Congress’ intent.

Page | 4

Statement of Facts
• On November 27, 2019, Roger Liverman Plaintiff-Appellant
appearing Pro Se and “in forma pauperis made a specific request
for the complete file and exhibits for Appeal Brief filing. Sent
Return Receipt Requested, Green Card signed by S. Estrada,
December 4, 2019.

• On December 05, 2019, the United States Court of Appeals, Fifth
Circuit, Office of the Clerk sent a letter to Mr. Roger Liverman,
422 Holiday Drive, Ponder, Texas 76259 regarding No. 19-51053
Roger Liverman v. LaWanda McMurray, et al USDC No. 7:19-CV62. The letter stated:

“Pro Se litigants may request the record from the district court to
prepare their brief. Those proceeding in forma pauperis may receive the
record without payment of shipping costs. If you wish to receive
exhibits, you must specifically request them,

Once you obtain the record, you should check it within 14 days of
receipt for any missing or incomplete items. If you need to request a
supplement record or order transcripts, do so promptly, the court will
not grant extensions of time to file your brief because you did not timely
check the record.”
Page | 5

• On December 10, 2019, Roger Liverman Plaintiff-Appellant
appearing Pro Se and “in forma pauperis made a specific request
for the missing exhibits and attachments needed for Appeal Brief
filing. Sent Return Receipt Requested, Green Card signed by S.
Estrada, December 12, 2019.

• On December 19, 2019, Roger Liverman Plaintiff-Appellant
appearing Pro Se and “in forma pauperis made a specific request
for the missing exhibits and attachments needed for Appeal Brief
filing. Made several phone calls to both the Office of the Clerk,
U.S. District Court, Western District of Texas (Midland Division)
and to the United States Court of Appeals, Fifth Circuit, Office of
the Clerk regarding the “missing” filings and exhibits. I was
informed that the Documents being sought are “not in the file.”

Specifically, missing documents are the Attachment and Exhibits
attached to Pro Se Plaintiffs Objection to Entire US Magistrate Judges
Order Denying Plaintiffs Emergency to Recuse and For Sanctions [see
Entry 58 (Entered: 10/17/2019)] and Notice of Filing Pro Se Plaintiffs
Objection to Entire Report and Recommendation of the US Magistrate
Judge [see Entry 59 (Entered: 10/17/2019)] highlighting the false,
statements contained therein to the U.S. District Judge David Counts.
-£

Page | 6

-r*

• On December 19, 2019, the United States District Court, Western
District of Texas, Office of the Clerk sent a letter dated December
16,2019, to Mr. Roger Liverman, 422 Holiday Drive, Ponder,
Texas 76259 regarding: MO:19-CV-62-DC-RCG, stating:
“A CD was mailed to you with a digital copy of your documents, the
clerk was kind enough to print a courtesy copy for you. Please refer to
your CD which contain all the pages you previously requested. Feel free
to contact us with any questions.

T*

• Roger Liverman, Plaintiff-Appellant appearing “Pro Se and in
forma pauperis” called the United States District Court, Western
District of Texas, Office of the Clerk to inform them I am 76 years
old and do not have a computer or know how to use one, Needless
to say, the person I spoke to was not helpful. Informed me that I
was not getting anything from her.

Introduction
One of the principal responsibilities of the federal criminal law is the
protection of government property. The property holdings of the United
States, its departments and agencies are extensive and include both
real and personal property in this country and abroad. In order for the
Federal government to perform the wide range of duties assigned to it
Page | 7

by law, it must have ready access to these properties and resources.
Therefore, it is very important that these properties be protected from
any theft, misuse or misappropriation.
9-66.400 - Protection of Public Records, Documents and Other
Government Information
Protection of Public Records and Documents CRM at 1663
The taking of a public record or document is prohibited by 18 U.S.C. §
641. The destruction of such records may be reached under 18 U.S.C. §
1361. In both instances, however, proving a $100 loss, the prerequisite
to a felony conviction, may be difficult. Thus, neither of these statutes
adequately protects government records.
The necessary measure of protection for government documents and
records is provided by 18 U.S.C. § 2071. Section 2071(a) contains a
broad prohibition against destruction of government records or
attempts to destroy such records. This section provides that whoever:
willfully and unlawfully; conceals, removes, mutilates, obliterates or
destroys; or attempts to conceal, remove, mutilate, obliterate or destroy;
or carries away with intent to conceal, remove, mutilate, obliterate or
destroy; any record, proceeding, map, book, paper, document or other
thing deposited in any public office may be punished by imprisonment
for three years, a $2, 000 fine, or both.

There are several important aspects to this offense. First, it is a specific
intent crime. This means that the defendant must act intentionally
Page | 8

with knowledge that he is violating the law. See United States v.
Simpson, 460 F.2d 515, 518 (9th Cir. 1972). Moreover, one case has
suggested that this specific intent requires that the defendant know
that the documents involved are public records. See United States v.
DeGroat. 30 F. 764, 765 (E.D.Mich. 1887).
The acts proscribed by this section are defined broadly. Essentially
three types of conduct are prohibited by 18 U.S.C. § 2071(a). These are:
(1) concealment, removal, mutilation, obliteration or destruction of
records; (2) any attempt to commit these proscribed acts; and (3)
carrying away any record with the intent to conceal, remove, mutilate
or destroy it. It should be noted that all of these acts involve either
misappropriation of or damage to public records. This has led one court
to conclude that the mere photocopying of these records does not violate
18 U.S.C. § 2071. See United States v. Rosner, 352 F. Supp. 915, 919-22
(S.D.N.Y. 1972).

Subsection (b) of 18 U.S.C. § 2071 contains a similar prohibition
specifically directed at custodians of public records. Any custodian of a
public record who "willfully and unlawfully conceals, removes,
mutilates, obliterates, falsifies, or destroys (any record) shall be fined
not more than $2,000 or imprisoned not more than three years, or both;
and shall forfeit his office and be disqualified from holding any office
under the United States." While the range of acts proscribed by this
subsection is somewhat narrower than subsection (a), it does provide
the additional penalty of forfeiture of position with the United States.
Page | 9

Title 18 contains two other provisions, of somewhat narrower
application, which relate to public records. Section 285 prohibits the
unauthorized taking, use and attempted use of any document, record or
file relating to a claim against the United States for purposes of
procuring payment of that claim. Section 1506 prohibits the theft,
alteration or falsification of any record or process in any court of the
United States. Both of these sections are punishable by a $5,000 fine or
imprisonment for five years.

Title 18 U.S.C. § 2071 Concealment, removal, or mutilation
generally
(a) Whoever willfully and unlawfully conceals, removes, mutilates,
obliterates, or destroys, or attempts to do so, or, with intent to do so
takes and carries away any record, proceeding, map, book, paper,
document, or other thing, filed or deposited with any clerk or officer of
any court of the United States, or in any public office, or with any
judicial or public officer of the United States, shall be fined under this
title or imprisoned not more than three years, or both.
(b) Whoever, having the custody of any such record, proceeding, map,
book, document, paper, or other thing, willfully and unlawfully
conceals, removes, mutilates, obliterates, falsifies, or destroys the same,
shall be fined under this title or imprisoned not more than three years,
or both; and shall forfeit his office and be disqualified from holding any
Page | 10

■

office under the United States. As used in this subsection, the term
"office" does not include the office held by any person as a retired officer
of the Armed Forces of the United States.
(June 25, 1948. ch. 645. 62 Stat. 795: Pub. L. 101—510, div. A, title V.
§552(a). Nov. 5. 1990. 104 Stat. 1566: Pub. L. 103-322. title XXXIII.
§330016(1)0). Sent. 13. 1994. 108 Stat. 2147.1
Historical and Revision Notes
Based on title 18, U.S.C., 1940 ed., §§234, 235 (Mar. 4. 1909. ch. 321.
§§128. 129, 35 Stat. 1111. 1112).Section consolidates sections 234 and
235 of title 18, U.S.C., 1940 ed.
Reference in subsection (a) to intent to steal was omitted as covered
by section 641 of this title. Minor changes^were made in phraseology.

Title 18 USC §1512 (b) Whoever knowingly uses intimidation,
threatens, or corruptly persuades another person, or attempts to do so,
or engages in misleading conduct toward another person, with intent to
- (1) influence, delay, or prevent the testimony of any person in an
official proceeding; (2) cause or induce any person to - (A) withhold
testimony, or withhold a record, document, or other object, from an
official proceeding; (B) alter, destroy, mutilate, or conceal an object with
intent to impair the object’s integrity or availability for use in an official
proceeding; ... shall be fined under this title or imprisoned not more
than 20 years, or both. (3) ... (c) Whoever corruptly—(1) alters, destroys,
mutilates, or conceals a record, document, or other object, or attempts to
Page | 11

T&

do so, with the intent to impair the object’s integrity or availability for
use in an official proceeding; or (2) otherwise obstructs, influences, or
impedes any official proceeding, or attempts to do so, shall be fined
under this title or imprisoned not more than 20 years, or both.
Background
• The U.S. Magistrate Judge Ronald C Griffin, willfully and
knowingly did make and use a false writing or document knowing
the same to contain a materially false, fictious, and fraudulent
statement and entry with the intent to impede, obstruct, or
influence the investigation or proper administration of any matter
within the jurisdiction or agency of the United States, and did
attempt to do the same to wit, U.S. Magistrate Judge Ronald C
Griffin, created and signed, and submitted to U.S. District Judge
David Counts and to the Clerk of the Court, U.S. District Court,
Western Division, (Odessa/Midland) ORDER DENYING 25
Emergency Motion to Recuse Magistrate Judge Ronald C. Griffin
and Sanction Defendants and Defendant Attorney of Record and
Law Firm (Motion to Recuse and for Sanctions). Signed by Judge
Ronald C Griffin, to appear [see entry 53 (Entered: 10/03/2019) on the Official Docket, a materially false instrument indicating
that U.S. Magistrate Judge Ronald C Griffin signed and ORDER
GRANTING 2JMotion to Leave to Proceed in forma pauperis.
Signed by Judge David Counts, [see entry 12 entered 04/03/2019
when he had not in fact done so.

Page | 12

• The U.S. Magistrate Judge Ronald C Griffin, willfully and
knowingly did make and use a false writing or document knowing
the same to contain a materially false, fictious, and fraudulent
statement and entry with the intent to impede, obstruct, or
influence the investigation or proper administration of any matter
within the jurisdiction or agency of the United States, and did
attempt to do the same to wit, U.S. Magistrate Judge Ronald C
Griffin, created and signed, and submitted to U.S. District Judge
David Counts and to the Clerk of the Court, U.S. District Court,
Western Division, (Odessa/Midland) REPORT AND
RECOMMENDATON Signed by Judge Ronald C Griffin, to
appear [see entry 54 (Entered: 10/07/2019) - on the Official
Docket1, a materially false instrument indicating that U.S.
Magistrate Judge Ronald C Griffin signed and ORDER
GRANTING 2_Motion to Leave to Proceed in forma pauperis.
Signed by Judge David Counts, [see entry 12 entered 04/03/2019
when he had not in fact done so.

• It must be highlighted that in both the ORDER DENYING 25
Emergency Motion to Recuse Magistrate Judge Ronald C. Griffin
and Sanction Defendants and Defendant Attorney of Record and
Law Firm (Motion to Recuse and for Sanctions). Signed by Judge
Ronald C Griffin and the REPORT AND RECOMMENDATON

1 Certified Docket by Clerk of the Court
Page | 13

-.e

Signed by Judge Ronald C Griffin, to appear [see entry 54
(Entered: 10/07/2019) - on the Official Docket, that the a materially
false instrument indicating that U.S. Magistrate Judge Ronald C
Griffin signed and ORDER GRANTING 2_Motion to Leave to
Proceed in forma pauperis in the Prior Civil Litigation when he
had not in fact done so.

• Because there was no Motion to Leave to Proceed in forma
pauperis because Roger Liverman, Appellant paid the filing fee in
that case as [see the attached receipt.] This is a Significant Fact.

• Notice of Filing Pro Se Plaintiffs Objection to Entire US
Magistrate Judges Order Denying Plaintiffs Emergency to Recuse
and For Sanctions [see Entry 58 (Entered: 10/17/2019)] and Notice
of Filing Pro Se Plaintiffs Objection to Entire Report and
Recommendation of the US Magistrate Judge [see Entry 59
(Entered: 10/17/2019)] highlighting the false, statements
contained therein to the U.S. District Judge David Counts.

T®

• On 10/24/2019, the Clerk of the Court, knowingly and willfully
changed the Official Docket by entering a materially false
instrument indicating that U.S. Magistrate Judge Ronald C
Griffin signed and ORDER GRANTING 2_Motion to Leave to

Page | 14

Proceed in forma pauperis. Signed by Judge Ronald C. Griffin2,
(se) Modified text to correct Judge’s name on 10/24/2019 with the
document being altered, falsified and forged [see entry 12 entered
04/03/2019 when he had not in fact done so in violation of Title 18
U.S.C. § 2071 Concealment, Removal, or Mutilation Generally,
contains a similar prohibition specifically directed at custodians of
public records.

2 Thus, attempting to correct the False Narrative and Statement made by the U.S.
Magistrate
Ronald C Griffin in his ORDER DENYING 25 Emergency Motion to Recuse
Magistrate Judge Ronald C. Griffin and Sanction Defendants and Defendant
Attorney of Record and Law Firm (Motion to Recuse and for Sanctions). Signed by
Judge Ronald C Griffin and the REPORT AND RECOMMENDATON Signed by
Judge Ronald C Griffin to appear [see entry 54 (Entered: 10/07/2019) - on the
Official Docket,
-p*'

However, this does not Correct a materially false instrument indicating that U.S.
Magistrate Judge Ronald C Griffin signed and ORDER GRANTING 2JMotion to
Leave to Proceed in forma pauperis in the Prior Civil Litigation when he had not in
fact done so. Because the Appellant paid the filing fee in that prior litigation and
thus NO ORDER GRANTING 2_Motion to Leave to Proceed in forma pauperis was
ever filed or signed in that Case. A Fabricated false Statement that they Clerk of
the Court, U.S. Magistrate Judge Ronald C Griffin and U.S. District Judge David
Counts knew was going to be used in the Docket. [See Entry 60 ORDER
ADOPTING REPORT AND RECOMMENDATION AND AFFIRMING THE
MAGISTRATE JUDGES ORDER as to 54 Report and Recommendations Signed by
Judge David Counts, (see) (Entered 10/28/2019) and FINAL JUDGEMENT. Signed
by Judge David Counts (see) (Entered: 10/28/2019.
Page | 15

• Any custodian of a public record who "willfully and unlawfully
conceals, removes, mutilates, obliterates, falsifies, or destroys
(any record) shall be fined not more than $2,000 or imprisoned not
more than three years, or both; and shall forfeit his office and be
disqualified from holding any office under the United States."
While the range of acts proscribed by this subsection is somewhat
narrower than subsection (a), it does provide the additional
penalty of forfeiture of position with the United States.
The United States Supreme Court shall Grant review not only because
the 5th Circuit’s Opinion is wrong, and by their Actions created a
Finality Trap to the detriment to the Petitioner, as well as U.S.
Supreme Court procedures —violated Petitioner’s Right of Due Process
and Equal Protection Clauses, but also because, by doing so, the court
can clarify ambiguities with Title 18 U.S.C. Section Misprision Felony
and the Constitution.
(In addition to focusing directly on the legal questions at issue in this
case, often point to disagreements among the federal courts of appeals
about those issues and ask the Supreme Court to resolve those disputes
by setting a precedent that the lower courts must follow.)
Supreme Court Procedures.
Once all of the cert stage briefs — the cert petition, the BIO (if any), the
reply brief (if any) and the amicus briefs (if any) — are filed, they are
distributed to the justices’ chambers.

Page | 16

Seven of the current justices participate in the cert pool, which is
a labor-saving device in which a cert petition is first reviewed by
one law clerk in one of the seven chambers.

That clerk prepares a memorandum about the case that includes
an initial recommendation as to whether the court should review
the case.
-ri-

The memorandum is circulated to all seven chambers, where it is
reviewed by the clerks and possibly the justices there.

Justices Samuel Alito and Neil Gorsuch do not participate in the
cert pool.
Instead, their law clerks review the incoming cert petitions on
their own and make recommendations directly to their respective
justices.
Based on these reviews, the justices decide to add the case to
the discuss list,

A short list of cases they plan to talk about at their next private
meeting, or conference. (If no justice had asked to add a case to
the discuss list,

Page | 17

It would have been put on the “dead list,” and the case would
automatically have been denied without the justices having ever
discussed the case or voted on it.)
-*

At least four justices vote to grant review of a Case and the court
announces this decision as part of an order list, which will
generally be released on the Monday morning after the conference.

FRAUD ON THE COURT —
Fraud on the Court occurs when the judicial machinery itself has been
tainted. Fraud on the Court makes void the Orders and Judgments of
that Court.
In Bullock v United States. 763 F.2d 1115,1121 (10th Cir. 1985), the
Court stated:

“Fraud upon the Court is fraud which is directed to the Judicial
machinery itself and is not fraud between the parties or fraudulent
documents, false statements or perjury..... It is where the Judge has not
performed his judicial function — thus where the impartial functions of
the Court have been directly corrupted.”
The Fraud upon the Court is created by allowing cases to be “decided”
by Law Clerks — instead of Supreme Court Justices failed to “perform
his/her judicial function, “to determine cases of controversy, in violation
of Article III of the U.S. Constitution,
Page | 18

The actions of the District Court, Appellate Court, and that of the U.S.
Supreme Court gives rise to more than the “hint of impropriety.”
Respectfully Submitted,
(

7
Roger Liverman, Plaintiff-Appellant
422 Holiday Drive,
Ponder, Texas 76259

Page | 19

■i

Supreme Court of the United States

Roger Liverman
(Petitioner)
v.

lT)<s fOU ^QiOH
(Respondent)

To

MtAcM.6^

No. 20-5808

<g_^
i

Counsel for Respondent:

NOTICE IS HEREBY GIVEN that a petition for writ of mandamus in the aboveentitled case was filed in the Supreme Court of the United States on August 26, 2020
and placed on the docket September 25, 2020.
Beginning November 13, 2017, parties represented by counsel must submit filings
through the Supreme Court’s electronic filing system. Paper remains the official form of
filhig> and electronic filing is in addition to the existing paper submission requirement.
Attorneys must register for the system in advance, and the registration process may take
several days. Further information about the system can be found at
https://www.supremecourt.gov/filingandrules/electrnnirfilinp- aapv

Mr. Roger Liverman
422 Holiday Drive
Ponder, TX 76259
(940) 372-3686

Note: This notice is for notification purposes only, and neither the original nor a copy should be filed in the
Supreme Court.

